CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing Brief in Opposition to Petition for Certiorari, described
below as follows:
No. 19-1265
IN THE SUPREME COURT OF THE UNITED STATES,
Friends of Danny DeVito, et al., Petitioners v. Tom Wolf,
Governor, et al., Respondents – Brief in Opposition to Petition
for Certiorari
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic filing and email to:
1 COPY TO: Marc A. Scaringi, Esquire
Scaringi & Scaringi, PC
marc@scaringilaw.com
Counsel for Applicants

s/ J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov
Dated: August 21, 2020

